No. 20-6503
In the Supreme Court of the United States
February 12, 2021

GEORGE J. RAUDENBUSH III., PETITIONER
v.
MONROE COUNTY, ET AL.
ON WRIT OF CERTIORARI TO THE UNITED STATES SUPREME COURT

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, George J. Raudenbush III, hereby respectfully petitions for rehearing
of this case before a full nine-member court.
This is a police brutality/corruption case. Respondent's have waived their right to challenge. On
_January 22, 2021 this certiorari was set for conference on three questions: (1) Whether the sixth circuit
erred by denying Petitioners application to proceed in forma pauperis. (2) Whether the sixth circuit
erred by finding that petitioners appeal was frivolous when he was denied a full and fair opportunity to
litigate the related criminal defense case, (3) Whether the sixth circuit erred by finding that petitioners
appeal was frivolous when he was denied the right to effective assistance of counsel in petitioners
defense.

On January 25th 2021 at the courts discretion, the court denied petitioners certiorari.
On February 27, 2019 Administrative Law Judge Edward Bowling determined petitioner to be fully
disabled and unemployable by the direct actions of officer Brain Millsaps taking place on December
30th 2010. Petitioner proceeds under the Americans with Disabilities Act 1990, under extraordinary
circumstances.

In complaints to the U.S Court at Knoxvillle in Dillingham v. Millsaps et al. 3:2007cv00214,
Raudenbush v. Monroe County et al. 3:2011cv00625, and Moses v. Brian Millsag§7-MonroeiGoqnty et

1

PER

4 2Q21

IFIRK.ff(TrlarFil.F.IZ

al. V2100S. Officer Millsaps is repeatedly named as being responsible for permanently injuring five
individuals, the petitioner being one of the five, and causing the death of a fifth in knowing acts of
misconduct and use of excessive and deadly force.
Ordinarily, it is not common practice for this Court to grant a rehearing. But when this Court has
conducted plenary review and then affirmed by vote of an equally divided court because of a vacancy
rather than a disqualification, the Court has not infrequently granted rehearing before a full bench.
"[R]ehearing petitions have been granted in the past where the prior decision was by an equally divided
Court and it appeared likely that upon re-argument a majority one way or the other might be mustered."
Stephen M. Shapiro et al., Supreme Court Practice § 15.6 (a), at 838 (10th ed. 2013). "The small
number of cases in which a full bench can rehear a case decided by an equal division probably amounts
to the largest class of cases in which a petition for rehearing after decision on the merits has any chance
of success." Id. at 839. For example, the government petitioned for rehearing in United States v. One
1936 Model Ford V-8 De 3 Luxe Coach, 305 U.S. 666 (1938), after this Court divided equally in a case
when there was a vacancy due to Justice Cardozo's death, but before the vacancy was filled. This Court
granted the petition, ibid., then heard the case after Justice Frankfurter was confirmed. 307 U.S. 219
(1939).

This Court similarly granted petitions for rehearing before a full bench in a series of cases decided 4-4
after Justice McReynolds' retirement caused a vacancy in 1941; after a leave of absence by Justice
Jackson caused a temporary vacancy in 1945; and after Justice Jackson's death caused a vacancy in
1954. See also, e.g., Pollock v. Farmers' Loans & Trust Co., 158 U.S. 617 (1895) (similar for absence
due to illness); id. at 601-606 (reproducing petition for rehearing discussing earlier cases); id. At 606607 (granting rehearing). In such situations, the Court has not infrequently held the case over the
Court's summer recess, holding oral arguments months later. For example, in Halliburton Oil Well
Cementing Co. v. Walker, 327 U.S. 812, the Court granted rehearing in February 1946, ibid., and heard
2

re-argument 240 days later in October of 1946, see 329 U.S. 1 (1946). See also, e.g., MacGregor v.
Westinghouse Elec. & Mfg. Co., 329 U.S. 402 (1947) (re-argument 248 days after rehearing granted);
Bal-1 Baltimore & Ohio R.R. v. Kepner, 313 U.S. 597 (1941); Toucey v. New York Life Ins. Co., 313
U.S. 596 (1941); New York, Chi. & St. Louis R.R. v. Frank, 313 U.S. 596 (1941); Commercial
Molasses Corp. v. New York Tank Barge Corp., 313 U.S. 596 (1941). 2 See MacGregor v.
Westinghouse Elec. & Mfg. Co., 327 U.S. 812 (1946); Bruce's Juices, Inc. v. American Can Co., 327
U.S. 812 (1946). 3 Indian Towing Co. v. United States, 349 U.S. 926 (1955); Ryan Stevedoring Co. v.
Pan-Atl. Corp., 349 U.S. 926 (1955). 4 Timore & Ohio R.R. v. Kepner, 314 U.S. 44 (1941) (175 days
later). In a few earlier cases, several years elapsed between the grant of rehearing and re-argument. See
Home Ins. Co. v. New York, 122 U.S. 636 (1887) (granting rehearing February 7, 1887), and 134 U.S.
594 (1890) (re-argument March 18-19, 1890); Selma, Rome & Dalton R.R. v. United States, 122 U.S.
636 (1887) (granting rehearing March 28, 1887), and 139 U.S. 560 (1891) (re-argument March 25-26,
1891). 3. The need for rehearing is also more pressing here than in Friedrichs v. California Teachers
Ass'n, 136 S. Ct. 1083, reh'g denied, No. 14-915, 2016 WL 3496857 (June 28, 2016), and in Hawkins
v. Community Bank of Raymore, 136 S. Ct. 1072, reh'g denied, No. 14-520, 2016 WL 3461626 (June
27, 2016). In those cases, after lengthy consideration, this Court denied petitions for rehearing before a
full Bench following 4-4 decisions from this Court. The issues that warranted certiorari in Friedrichs
and Hawkins may freely recur in other cases.

Unless the Court resolves this case in a precedential manner, a matter of "great national security"
continues to exist in regard to protection of this nation and its citizens from police abuses. Recent
national "unprecedented and momentous" assemblies of the people calling for the redress of police
abuses is a further indication that this court is compelled to address these issues, to restore justice and
to further preserve the tranquility of our nation.

3

This Court is the final arbiter of these matters through a definitive ruling. This case arises on appeal of
serious violations of the constitution that protect each of its citizens, the people. If gone unaddressed
and unchecked, these same issues will arise again in many other cases.

For the foregoing reasons, this petition for rehearing should be granted.

Respectfully submitted by George J. Raudenbush III.

CERTIFICATE OF PRO SE PETITIONER, I hereby certify that this petition for rehearing is presented
in good faith and nod f
ay

George J. R1
au nbush III, Petitioner
2545 Woodbine Avenue
Knoxville, TN 37914
(865) 228-9170

4

